WAIVER

Supreme Court of the United States

No. 20-5140
Wilfredo Torres ve City of New York, New York, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Bellevue. Ssuth Mscocites & p

 

I am a member of the Bar of the Supreme Court of the United States.

Q Iam not presently a member of the Bar of this Court. Should a response be requested,

 

 

 

the response will be filed by a Bar (
Date: Jw\y 30,2020 \
(Type or print) Name S Ames ROSERT PIEOTT, +L
ir. OMs. O Mrs. O Miss

 

Firm. pps_lhouses

Address. tht Iii 4 a4 Fi.

City & State. New Yor f NY [oo/o Zip 22°(6
Phone GY - 344 - 4343

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Mon. bar \Crede Toner

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
